<html>
<title> - INCREASING AMERICAN JOBS THROUGH GREATER EXPORTS TO AFRICA ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






 INCREASING AMERICAN JOBS THROUGH GREATER EXPORTS TO AFRICA ACT OF 2013

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1777

                               __________

                           NOVEMBER 21, 2013

                               __________

                           Serial No. 113-122

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-644 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1777, To create jobs in the United States by increasing 
  United States exports to Africa by at least 200 percent in real 
  dollar value within 10 years, and for other purposes...........     2
  Amendment in the Nature of a Substitute to H.R. 1777 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey, and chairman, 
    Subcommittee on Africa, Global Health, Global Human Rights, 
    and International Organizations..............................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    44
Markup minutes...................................................    45
Markup summary...................................................    46

 
 INCREASING AMERICAN JOBS THROUGH GREATER EXPORTS TO AFRICA ACT OF 2013

                              ----------                              


                      THURSDAY, NOVEMBER 21, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. Pursuant to 
notice, the subcommittee will meet this morning to markup H.R. 
1777, the Increasing American Jobs Through Greater Exports to 
Africa Act of 2013. As our members are aware, this measure 
enjoys strong bipartisan support. There are competing hearings 
and other events taking place this morning so we will move 
quickly to its consideration.
    It is the intent of the Chair to consider this measure en 
bloc, along with a substitute amendment sent to you on Tuesday.
    All members have copies of these documents before them, and 
then after we have concluded our expedited consideration I will 
recognize myself, Mr. Cicilline, who is sitting in for Ranking 
Member Bass, and any other members who would like to make a 
statement. All members are given leave to insert written 
remarks in the record should they choose to do so.
    Seeing that a reporting quorum is present and without 
objection, the following are considered as read and will be 
considered en bloc--H.R. 1777, the Increasing American Jobs 
Through Greater Exports to Africa Act of 2013 and the Smith 
Amendment 36 to H.R. 1777 sent to your offices on Tuesday.
    [The information referred to follows:]<greek-l>H.R. 
1777 deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Smith. The Chair moves that the en bloc items be 
adopted. All those in favor say aye.
    [Chorus of ayes.]
    Mr. Smith. Those opposed? In the opinion of the Chair, the 
ayes have it and the items considered en bloc are adopted. 
Without objection, the measures as amended are reported 
favorably to the full committee and the staff is directed to 
make technical and conforming changes. Now that we have 
completed the formal considerations of these measures, again I 
would like to recognize myself for a brief explanation of the 
bill, H.R. 1777, the Increasing American Jobs Through Greater 
Exports to Africa Act of 2013. This bill, which I am happy to 
say is cosponsored by our Ranking Member Karen Bass and 
Congressman Bobby Rush, directs the President to establish a 
comprehensive U.S. strategy for public and private investment, 
trade, and development in Africa. This legislation focuses, 
among other things, on increasing exports of U.S. goods and 
services to Africa by 200 percent in real dollar value within 
10 years. According to the Department of Commerce, every $1 
billion in U.S. exports creates some 6,000 jobs in this 
country.
    My legislation calls for the alignment of U.S. commercial 
interests in the development of priorities in Africa. Trade and 
aid are not mutually exclusive. Capacity building, for example, 
is a development tool and it must be used to enable African 
countries to become more proficient in promoting trade and 
expanding wealth opportunities in their countries. Improving 
the competitiveness of U.S. businesses in Africa is in 
America's interest as well since more prosperous Africans can 
afford U.S.-manufactured goods.
    This legislation encourages a greater understanding among 
U.S. financial and business communities of the opportunities 
that Africa holds for U.S. exports. Today, U.S. publications 
only occasionally describe the commercial opportunities 
available in Africa. If you read Fortune, Business Week, or 
even Black Enterprise magazines, you will read perhaps an 
annual Africa-focused issue that is in general in its 
description of business in Africa, but there is little ongoing 
discussion of the kind of linkages that U.S. businesses are 
missing. Chinese, Japanese, and even Turkish businesspeople are 
taking full advantage of those opportunities today, and 
American businesspeople should have the same chances to benefit 
from them.
    The legislation fosters partnership opportunities between 
U.S. and African small- and medium-sized enterprises, 
especially among the African diaspora businesses which have not 
benefited from the African Growth and Opportunity Act, or AGOA, 
as they might have. Again, this is a function of not having 
sufficient information on which to base important commercial 
decisions.
    The President is required, pursuant to the bill, if it 
becomes law, to designate a special Africa export strategy 
coordinator. U.S. trade policy is too often stovepiped, meaning 
that various agencies pursue their missions without sufficient 
coordination. In an increasingly competitive global trade 
environment, this practice must end. The Secretary of Commerce 
is directed to ensure that at least 10 total U.S. and Foreign 
Commercial Service Officers are assigned to U.S. Embassies in 
Africa for each of the first 5 fiscal years after enactment of 
the act. We tried to increase foreign commercial service 
officers under AGOA, but their numbers are currently, in fact, 
shrinking.
    I see this legislation as complementing AGOA. It is 
absolutely not replacing it. When AGOA is reauthorized, and we 
hope that will be next year, this legislation will be a worthy 
companion to balance the benefits of U.S.-Africa trade for 
businesspeople on both sides of the Atlantic Ocean.
    I would like to now yield to Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to begin by 
thanking you and Ranking Member Bass for your leadership in 
moving to markup H.R. 1777, the Increasing American Jobs 
Through Greater Exports to Africa Act of 2013. You and 
Congressman Rush have shown incredible leadership in 
introducing a bill that is both good for our country and good 
for African nations. I also want to acknowledge the bipartisan 
Senate companion too, S. 718, introduced by Senator Durbin, and 
that includes 10 other Senate members who have shown their 
support for this measure.
    We are now well familiar with the facts that African 
economies are growing at a respectable pace, and several 
consistently beyond that. Over the last dozen years some of the 
world's fastest growing economies are in Africa. With over 1 
billion Africans participating in the global marketplace, we 
see new consumers who are eager to take part in the flow of 
goods and services and who have increasing purchasing power for 
those goods and services. I am pleased and strongly support 
this bill which calls for comprehensive United States strategy 
for public and private investment, trade, and development in 
Africa. Such a strategy is important and essential to U.S. 
private sectors to engage effectively and support this type of 
engagement that African nations require if we are to transition 
from transitional aid models to that of trade and investment.
    I would particularly note the important role played by the 
U.S. Foreign Commercial Service Officers. These dedicated 
representatives of the Department of Commerce play an integral 
role in our efforts to expand U.S. investment in Africa. They 
are key to the local private sector and can introduce visiting 
U.S. companies to local government and private sector 
representatives. We need more of these experts in Africa and I 
heartily support the bill's call for an increase in the number 
of Foreign Commercial Service Officers assigned to countries in 
Africa.
    If our Nation seeks to be competitive on the continent, it 
will require new steps, new strategies, and new thinking to 
recognize that the U.S. can be a market leader and key business 
partner on the continent if we want to be. Indeed, for all of 
the discussion about the aggressive marketing tactics displayed 
by China and others, neither BRICs nations nor former colonial 
powers in Africa can match U.S. companies in terms of the 
marketing of quality of goods and services, the provision of 
sound maintenance contracts, and the development of outstanding 
executive training. This is why so many countries worldwide 
like to work with the U.S. private sector, and in this respect 
Africa is no different.
    It is against this backdrop that I support this bill which 
focuses on an assertive and comprehensive whole of government 
approach to U.S. Government and U.S. private sector engagement 
with the countries of Africa. Mr. Chairman, earlier this year 
President Obama visited Senegal, South Africa, and Tanzania. 
During his visit to the continent, he spoke of his strong 
support for the reauthorization of AGOA and announced two 
landmark Presidential initiatives--Power Africa, aimed at 
building the continent's access to electrical power to help 
grow businesses, and Trade Africa, aimed at developing greater 
interregional trade and augmenting U.S. trade and investment. 
This bill complements these initiatives by promoting greater 
U.S. Government synergy, facilitating public-private 
partnership, and augmenting U.S. bilateral relations with the 
countries of Africa.
    Mr. Chairman, in closing I want to once again acknowledge 
the bipartisan, bicameral support under your leadership for not 
only the African Growth and Opportunity Act (AGOA) but the 
greater goal of growing partnership between the U.S. and 
African private sector. You and many of my colleagues in this 
committee have long recognized the importance of this goal for 
the United States and the countries of Africa. I thank you for 
your continued support and look forward in continuing to work 
with you and Ranking Member Bass and my colleagues in this 
regard. I thank you, Mr. Chairman. I yield back.
    Mr. Smith. Mr. Cicilline, thank you very much. Would any 
other members like to be heard?
    Mr. Meadows?
    Mr. Meadows. Just would like to thank the chairman for his 
foresight and his unrelenting pursuit to make sure that we have 
a good relationship with the continent of Africa, but also in 
terms of creating jobs here in America. And so just my 
compliments to him and wish him a happy Thanksgiving.
    Mr. Smith. Thank you.
    Mr. Weber?
    Mr. Weber. What he said.
    Mr. Smith. Okay, thank you. I want to thank my colleagues 
for their support of this legislation, their cosponsorship of 
it, and we will move to the full committee. The markup session 
of this subcommittee is adjourned.
    [Whereupon, at 10:13 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
